Exhibit A

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-14724

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
EVERETT TRIPODIS,
Defendant-Appellant.

MOTION IN SUPPORT OF APPEAL OF DISTRICT COURT’S
DETENTION ORDER

MARK A. CAMPBELL
3300 Hamilton Mill Road
Suite 102-124
Buford, Georgia 30519
(404) 345-2593
mcampbell.atty@gmail.com
Georgia Bar No. 384028
Attorney for Everett Tripodis

i

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
UNITED STATES OF AMERICA,
Respondent-Appellee,
APPEAL NO. 20-14724
v.
EVERETT TRIPODIS,
Defendant-Appellant.
CERTIFICATE OF INTERESTED PERSONS
AND CORPORATE DISCLOSURE STATEMENT
Counsel hereby certifies that the following have an interest in the outcome of
this case:
Bentley Atlanta, Victim
Berry, Quentin, Codefendant,
Campbell, Mark A., Appellant’s Attorney
Clerk, Phyllis, Assistant United States Attorney
Erskine, Kurt, Acting United States Attorney
Favors, Jamil A., Wilson’s Defense Counsel
Hall, Jamila M., Wilson’s Defense Counsel
Harvey, Bruce S., Payne’s Defense Counsel
Jones, Paul R., Assistant United States Attorney

ii

Kearns, Stephanie A., Executive Director, Federal Defender Program
Kincaid, Meredith C., Wilson’s Defense Counsel
Nocharli, Rebecca M., Wilson’s Defense Counsel
Ojeda, Rebeca M., Assistant United States Attorney
Payne, Janell, Codefendant
Pierson, Holly A., Payne’s Defense Counsel
Secret, Akil K., Tate’s Defense Counsel
Silas, Kendal D., Appellant’s Former Defense Counsel
Strongwater, Jay L., Tyler’s Defense Counsel
Tate, Kakawana R., Codefendant
Thrash, Jr. Hon. Thomas W., United States District Judge
Timmers, Sarah M., Berry’s Defense Counsel
Traynor, William G., Assistant United States Attorney
Tripodis, Everett J., Appellant
Tyler, Antonio, Codefendant
United States of America, Appellee
Walker, Linda T., United States Magistrate Judge
Wilson, Mark A., Codefendant
No publicly traded company or corporation has an interest in the outcome of
the case or appeal.
iii

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
UNITED STATES OF AMERICA,
Respondent-Appellee,
APPEAL NO. 20-14724
v.
EVERETT TRIPODIS,
Defendant-Appellant.

DEFENDANT TRIPODIS’S MOTION APPEALING THE
DISTRICT COURT’S DETENTION ORDER
The Petitioner, EVERETT TRIPODIS, hereby files this motion appealing the
Honorable Thomas W. Thrash, Jr.’s order (Doc. 297, attached hereto as Exhibit #1)
denying Defendant’s motion for review of the magistrate’s order of detention. (Doc.
287).

PROCEDURAL HISTORY
A grand jury sitting in the Northern District of Georgia returned an indictment
on June 26, 2018 charging Mr. Tripodis with one count of conspiracy in violation of
18 U.S.C. § 371, ten counts of mail fraud in violation of 18 U.S.C. §§ 1343 and 2,
three counts of wire fraud in violation of 18 U.S.C. §§ 1341 and 2, and one count of
altering or removing VINs in violation of 18 U.S.C. §§511 and 2. (Doc. 1). On July
10, 2018, the Government filed a motion for detention. (Doc. 25). The magistrate

l

held a detention hearing on July 13, 2018 (Doc. 36) and entered an Order of
Detention Pending Trial. (Doc. 37).
Mr. Tripodis filed numerous pretrial motions on May 2, 2019 including a
motion to dismiss the mail and wire fraud counts (Doc. 97), motion to suppress
evidence seized from a motor vehicle (Doc. 98), motion to suppress evidence seized
from a residence (Doc. 99), motion to dismiss for lack of venue (Doc. 100), motion
to dismiss for lack of venue and jurisdiction (Doc. 101), motion to strike surplusage
(Doc. 102), motion for bill of particulars (Doc. 103), and motion to dismiss for
multiplicity (Doc. 104). Evidentiary hearings were held on Mr. Tripodis’s motion
to suppress evidence seized from a motor vehicle (Doc. 98) on July 31, 2019 and
October 1, 2019. (Docs. 155 and 170). The Government conceded the motion to
dismiss for multiplicity (Doc. 104) and declared that no evidence from the search of
the residence would be admitted, thus rendering the motion to suppress evidence
seized from a residence (Doc. 99) moot.
On December 20, 2019, the magistrate issued a report and recommendation
to deny all but the motion for a bill of particulars (in part) and certified the case ready
for trial. (Doc. 196). However, on February 26, 2020, the District Court overruled
the report and recommendation, in part, and granted Mr. Tripodis’s motion to
dismiss the mail and wire fraud counts. (Doc. 210). In addition, the District Court
granted, in part, Mr. Tripodis’s motion for bill of particulars. (Id). The District
2

Court ordered that the “authentic” YIN and the “fraudulent” YIN for the 2016
Bentley Continental GT V8S convertible referenced in Count 5 (previously Count
17), be provided. (See Doc. 196 at 40). The Government has not produced this
information.

Moreover, additional information concerning whether the VINs

specified in the original indictment for the motor vehicles were the “authentic” or
the “fraudulent” (“cloned”) YINs and/or whether the motor vehicles identified were
simply the subject of internet searches, that is, not stolen vehicles, was also ordered
to be produced. (See Id. at 47). The Government has not produced that information,
either (although those counts were dismissed, several of the vehicles are referenced
in the new conspiracy count in the First Superseding Indictment). (See Doc. 242).
A grand jury sitting in the Northern District of Georgia returned a superseding
indictment on August 11, 2020 charging Mr. Tripodis with one count of conspiracy
in violation of 18 U.S.C. § 371, three counts of interstate transportation of stolen
vehicles in violation of 18 U.S.C. §§ 2312 and 2, and one count of altering or
removing VINs in violation of 18 U.S.C. §§511 and 2. (Doc. 242). Mr. Tripodis
pleaded not guilty to the charges on August 20, 2020 (Doc. 257).
On September 29, 2020, Mr. Tripodis filed a motion for reconsideration of
magistrate’s order of detention. (Doc. 272). The magistrate denied this motion on
October 22, 2020. (Doc. 286). Mr. Tripodis moved the District Court for review of
the order on October 23, 2020. (Doc. 287).
3

On November 12, 2020, the District Court held a hearing on the motion. The
District Court entered an order denying the motion on December 14, 2020. (Doc.
297). On December 17, 2020 filed a timely notice of appeal. (Doc. 303). Mr.
Tripodis remains detained at the Robert A. Deyton Detention Facility in Lovejoy,
Georgia.
THE LEGAL STANDARD
The Bail Reform Act allows either party to seek review of a magistrate judge’s
order on pre-trial detention. 18 U.S.C. § 3145 (b). Appellate review of detention
orders is both factual and plenary. The factual findings are reviewed under the
clearly erroneous standard, the legal determinations are reviewed de novo. United
States v. Hurtado, 779 F.2d 910 (11th Cir. 1985). Here, the District Court erred by
ordering Mr. Tripodis detained on the grounds of dangerousness, by finding Mr.
Tripodis’s continued detention does not violate due process, and by using a higher
standard than required by the Bail Reform Act.

4

a

THE DISTRICT COURT ERRED BY ORDERING MR. TRIPODIS
DETAINED ON THE GROUNDS OF DANGEROUSNESS
The Government brought the detention motion pursuant to 18 U.S.C. §§
3142(e) and (f). (Doc. 25 at 1). Specifically, the Government argued that Mr.
Tripodis was eligible for detention because his case involved serious risks that he
would flee and that he would obstruct, or attempt to obstruct, justice. (Id). The
Government alleged, “The Court should detain [Mr. Tripodis] because there are no
conditions of release that will reasonably assure [his] appearance ... and the safety
of any other person and the community. (Id).
At the detention hearing, the Government listed the charges alleged in the
indictment, described the alleged conduct of the various defendants, identified some
of the evidence in the case, and detailed Mr. Tripodis’s criminal history. (Doc. 59 at
2 - 6). Counsel for the Government argued:
It is clear from the record, Your Honor, that there are no conditions or
set of conditions that [could] be set for [Mr. Tripodis] to not violate the
law if he were to be released on bond. And we’re asking this Court to
detain him given his record and his history, Your Honor, and the fact
that he continues to engage in this exact same conduct despite being
convicted and revoked on supervised release.
(Id. at 6).
The magistrate considered the Government’s argument that Mr. Tripodis was
a flight risk but ordered him detained solely on the ground that the court “did not
have any confidence that [he] would not continue to violate the law if he were
5

L

released and would pose a danger to the community ...(Id. at 20). Thereafter, the
magistrate entered an Order of Detention Pending Trial where the court found, “By
clear and convincing evidence that no condition or combination of conditions or
release [would] reasonably assure the safety of any other person and the
community.” (Doc. 37 at 2). The magistrate expressly did not hold that no condition,
or combination of conditions, of release would reasonably assure Mr. Tripodis’s
appearance as required, (see id.). The order noted that it was in response to the
Government’s motion brought pursuant to 18 U.S.C. §§ 3142(f)(1).
18 U.S.C. §§ 3142(f) lists two categories of grounds on which the Government
can request a detention hearing. 18 U.S.C. §§ 3142(f)(1) provides that a detention
hearing shall be held:
[U]pon motion of the attorney for the Government, in a case that
involves (A) a crime of violence, a violation of section 1591, or an offense listed
in section 2332b(g)(5)(B) for which a maximum term of imprisonment
of 10 years or more is prescribed;
(B) an offense for which the maximum sentence is life imprisonment
or death;
(C) an offense for which a maximum term of imprisonment of ten years
or more is prescribed in the Controlled Substances Act (21 U.S.C. 801
et seq.), the Controlled Substances Import and Export Act (21 U.S.C.
951 et seq.), or chapter 705 of title 46;
(D) any felony if such person has been convicted of two or more
offenses described in subparagraphs (A) through (C) of this paragraph,
or two or more State or local offenses that would have been offenses
6

described in subparagraphs (A) through (C) of this paragraph if a
circumstance giving rise to Federal jurisdiction had existed, or a
combination of such offenses; or
(E) any felony that is not otherwise a crime of violence that involves a
minor victim or that involves the possession or use of a firearm or
destructive device (as those terms are defined in section 921), or any
other dangerous weapon, or involves a failure to register under section
2250 of title 18, United States Code[.]
18 U.S.C. §§ 3142(f)(2) provides that a detention hearing shall be held:
[U]pon motion of the attorney for the Government or upon the judicial
officer’s own motion in a case, that involves (A) a serious risk that such person will flee; or
(B) a serious risk that such person will obstruct or attempt to obstruct
justice, or threaten, injure, or intimidate, or attempt to threaten, injure,
or intimidate, a prospective witness or juror.
Notably, the Government’s motion claimed Mr. Tripodis was eligible for
detention pursuant to 18 U.S.C. §§ 3142(f)(2) but that the reason for detention
concerned the “safety of any other person and community.” (See Doc. 25 at 1). In
contrast, the magistrate’s Order of Detention Pending Trial stated that the
Government’s motion was brought pursuant to 18 U.S.C. §§ 3142(f)(1). (Doc. 37 at
1). The magistrate explicitly stated that Mr. Tripodis was “detained as a danger to
the community.” {Id. at 3). The District Court ruled:
I think for the reasons stated by [the magistrate] in his Order of October
22nd, dangerousness is a factor that can be considered. And based on
the Defendant’s extensive record of committing the same types of
crimes, two convictions for it, repeated violations of the conditions of
supervised release, that he is a danger to the community if he would be
7

released, and that there are no conditions that can assure the safety of the
community if he was released.
Transcript at 20.
However, as Mr. Tripodis is not charged with one of the offenses listed in 18
U.S.C. §§ 3142(f)(1), he cannot be detained on the basis of danger to the community.
See United States v. Himler, 797 F.2d 156,160 (3d Cir. 1986); United States v. Ploof,
851 F.2d 7, 11 - 12 (1st Cir. 1988); United States v. Friedman, 837 F.2d 48, 49 (2d
Cir. 1988); United States v. Byrd, 969 F.2d 106, 100-11 (5th Cir. 1992); United
States v. Twine, 344 F.3d 987 (9th Cir. 2003).
This Court has yet to issue an opinion on the issue of whether someone can
be detained on a finding of dangerousness absent being charged with one of the
offenses listed in 18 U.S.C. §§ 3142(f)(1). Therefore, this Court should adopt the
holdings of other circuits considering the same issue.
The reasoning of the other circuits is compelling and persuasive. In Himler,
supra, the Third Circuit considered whether, under the Bail Reform Act of 1984, a
defendant could be detained prior to trial based on danger to the community where,
like the instant case, the detention hearing was justified only by an alleged serious
risk of flight pursuant to 18 U.S.C. Sec. 3142(f)(2)(A). Himler, supra, 797 F.2d at
156.
In Himler, the Third Circuit noted, “The hallmark of the Bail Reform Act of
1984 is its requirement that an arrested person be admitted to bail only under
8

conditions which will ‘reasonably assure both the appearance of the person as
required and the safety of any other person and the community.’” Id. at 158 (internal
citation omitted). The court further noted that the Bail Reform Act marked a “radical
departure from former federal bail policy and that prior thereto, “consideration of a
defendant's dangerousness in a pretrial release decision was permitted only in capital
cases.” Id. (internal citation omitted).
Similar to the instant case, the government argued that 18 U.S.C. § 3142(e)
did not limit detention hearings to those cases specified in subsection (f) and that the
only purpose of subsection (f) was to specify those cases in which a hearing is
mandated. Id. at 160. Again, just like the instant case, the government argued that
once a hearing was authorized, any evidence of danger to the community from
recidivism could be relied upon to justify pretrial detention. Id.
The Third Circuit disagreed, noting:
If Congress had intended to authorize pretrial detention in all cases
where recidivism appears likely it could easily have done so. The
legislative history of the Bail Reform Act of 1984 makes clear that to
minimize the possibility of a constitutional challenge, the drafters
aimed toward a narrowly-drafted statute with the pretrial detention
provision addressed to the danger from “a small but identifiable group
of particularly dangerous defendants.” (Citations omitted).
Id. The court accepted as true that a hearing may be held in connection with any
bail decision. Id. However, citing the legislative history, the court held that “the
requisite circumstances for invoking a detention hearing in effect serve to limit the
9

types of cases in which detention may be ordered prior to trial.” Id. (internal citations
omitted). Thus, the court reasoned, it was “reasonable to interpret the statute as
authorizing detention only upon proof of a likelihood of flight, a threatened
obstruction ofjustice or a danger of recidivism in one or more of the crimes actually
specified by the bail statute.” Id.
Two years later, the First Circuit weighed in. In Ploof, supra, that court
applied Himler to reach a similar result. Considering Himler, The First Circuit said:
[T]he structure of the statute and its legislative history make it clear that
Congress did not intend to authorize preventive detention unless the
judicial officer first finds that one of the Sec. 3142(f) conditions for
holding a detention hearing exists. To conclude otherwise would be to
ignore the statement in the legislative history that the “circumstances
for invoking a detention hearing in effect serve to limit the types of
cases in which detention may be ordered prior to trial[.]” (Citations
omitted).
Ploof, supra, 851 F.2d. at 11. The First Circuit agreed with the Third Circuit and
held that where detention is based on dangerousness grounds, it can be ordered only
in cases involving one of the circumstances set forth in 18 U.S.C. § 3142(f)(1). Id.
When none of those factors are present, such as in the instant case, pre-trial detention
solely on the ground of dangerousness to another person or to the community is not
authorized. Id.
The Second Circuit considered the same issue that year as well in Friedman,
supra. Therein, the Second Circuit put it bluntly, “[T]he Bail Reform Act does not
permit detention on the basis of dangerousness in the absence of risk of flight,
to

obstruction of justice or an indictment for the offenses enumerated [in 18 U.S.C. §§
3142(f)(1)].” Friedman, 837 F. 2d at 49.
Moreover, in Byrd, the Fifth Circuit opined:
There can be no doubt that this Act clearly favors nondetention. It is
not surprising that detention can be ordered only after a hearing; due
process requires as much. What may be surprising is the conclusion that
even after a hearing, detention can be ordered only in certain designated
and limited circumstances, irrespective of whether the defendant's
release may jeopardize public safety.
Byrd, supra, 969 F.2d at 109-10.
Finally, in Twine, the Ninth Circuit held, “We are not persuaded that the Bail
Reform Act authorizes pretrial detention without bail based solely on a finding of
dangerousness. This interpretation of the Act would render meaningless 18 U.S.C. §
3142(f)(1) and (2). Our interpretation is in accord with our sister circuits who have
ruled on this issue.” Twine, supra, 344 F.3d at 987 (internal citations omitted).
As Mr. Tripodis is not charged with one of the offenses listed in 18 U.S.C. §§
3142(f)(1), he cannot be detained on the basis of danger to the community. This
Court has already noted that risk of flight was not a primary concern. (Doc. 59 at
20). Moreover, the detention order does not even address risk of flight. (See Doc.
37). Therefore, the District Court erred by ordering Mr. Tripodis detained on the
grounds of dangerousness.

li

THE DISTRICT COURT ERRED BY FINDING MR. TRIPODIS’S
CONTINUED DETENTION DOES NOT VIOLATE DUE PROCESS
Mr. Tripodis has been detained for over 31 months on nonviolent charges
related to vehicle theft and interstate transportation of stolen vehicles. This violates
the Due Process Clause of the United States Constitution. Other circuit courts have
applied a four-part test to determine whether the length of pretrial detention has
become unconstitutionally excessive. See, e.g., United States, v. Mohammed, 213
F.3d 74, 79 (2nd Cir. 1999). These factors include: (1) the length of detention, (2)
the extent of the prosecution’s responsibility for delay of the trial, (3) the gravity of
the charges, and (4) the strength of the evidence upon which detention was based,
i.e., the evidence of risk of flight and dangerousness. Id. As this Court has noted
these factors previously, see United States v. Quartermaine, 913 F.2d 910,918 (11th
Cir. 1990), Mr. Tripodis proposes this Court consider them as well.
First, Mr. Tripodis was arrested on the original indictment on July 10, 2018.
(Doc. 18). He has been detained for over 31 months and, given the Northern District
of Georgia’s General Order 20-01 and its ten amendments1, will not be tried for
many more months. Courts have found pretrial detention too prolonged to withstand
due process challenge when imposed for periods of time shorter than the 31 months

1 These orders, issued as a direct result of the COVID-19 pandemic, have mandated that no
criminal jury trials in any division of the Northern District of Georgia will be held through April
4, 2021.
12

that Mr. Tripodis has already endured. See, e.g., United States v. Zannino, 798 F.2d
544, 548 (1st Cir. 1986) (noting that, in perhaps most cases, sixteen months would
be found to exceed due process limitations); United States v. Gonzales Claudio, 806
F.2d 334, 341 (2nd Cir. 1986) (stating “detention that has lasted for fourteen months
and, without speculation, is scheduled to last considerably longer, points strongly to
a denial of due process.” See also United States v. Ojeda-Rios, 846 F.2d 167, 169
(2nd Cir. 1988) (ordering the release of member of a paramilitary group charged
with robbery after approximately 33 months’ detention).
Second, the prosecution is responsible for the delay of the trial. Mr. Tripodis
moved for a bill of particulars back on May 2, 2019. (Doc. 103). Therein, he noted
that:
[He could not] properly prepare his defense to the charges without
identification of the victims and their property interests. Notably, this
information is not indicated in the Rule 16 discovery. Moreover,
without identification of whether the identified vehicles in the
indictment were stolen cars, cloned VINs, or simply the subjects of
internet searches, Mr. Tripodis is similarly thwarted in the preparation
of his defense. In addition, Mr. Tripodis has not been informed of the
specific material misrepresentations, or the omissions or concealments
of material facts calculated to deceive another out of money or property.
Finally, Mr. Tripodis cannot prepare a defense to Count 17 without the
vehicle being identified by VIN. Therefore, it is essential that the Court
order the government to file a bill of particulars identifying the alleged
victim(s) and property interest(s) of each count, the material
misrepresentations, or the omissions or concealments of material facts
calculated to deceive another out of money or property as well as
whether the vehicles in the indictment were stolen cars, cloned VINs,
or simply the subjects of internet searches.
13

{Id. at 102-03). Mr. Tripodis further advised the District Court that more than 13,000
pages of documents had been produced in discovery and yet:
The discovery provides little or no guidance due to the hundreds of
redacted VINs throughout. It is impossible to determine with any
certainty whether the vehicles listed in the Indictment were actually
stolen, had their VINs altered or removed, or even existed in the first
place. It is virtually impossible to distinguish between vehicles of the
same make and model (even the Government confuses the Audi in
Count Five and the Bentley in Count 17). Moreover, as the Government
only identifies the vehicles as “subjects] of the scheme to defraud,” it
is unknown whether the vehicles actually constitute the properties
defrauded from the unidentified victims.
(Doc. 175 at 7 - 8). As previously noted, the District Court ordered the Government
to provide the “authentic” YIN and the “fraudulent” YIN for the 2016 Bentley
Continental GT V8S convertible referenced in Count 5 (previously Count 17). (See
Doc. 196 at 40). Moreover, the District Court also ordered the Government to
provide additional information concerning whether the VINs specified in the original
indictment for the motor vehicles were the “authentic” or the “fraudulent” (“cloned”)
VINs and/or whether the motor vehicles identified were simply the subject of
internet searches, that is, not stolen vehicles, was ordered to be produced. (See Id. at
47). The Government has not produced any of this information (although those
counts were dismissed, several of the vehicles are referenced in the new conspiracy
count in the First Superseding Indictment). (See Doc. 242).
In United States v. Gonzales Claudio, the Second Circuit found the
government to be responsible for a significant portion of the delay of the trial due to
14

the government’s piecemeal delivery of the voluminous discovery between nine to
fourteen months after the defendant’s arrest. Gonzales Claudio, 806 F.2d at 334,
341-42 (2nd Cir. 1986). The Second Circuit found that it did not have to determine
the extent that the government was “at fault” but, rather, must assess the
government’s responsibility for the delay. Id.
In addition to the heavily-redacted discovery and the as-yet unprovided
information required by the district court’s order, the greatest delay is attributable to
the Government’s pursuing a flawed theory of mail and wire fraud for nearly two
years that was ultimately dismissed by the district court. If the Government had
brought the Superseding Indictment in the first place, this case may have been tried
and done months ago.
Third, this Court should consider the gravity of the charges. Mr. Tripodis has
been charged with fraud offenses with, at most, ten-year statutory maximums. While
these are not trivial charges, they are far less significant than the offenses enumerated
in 18 U.S.C. § 3142(f)(1) (including crimes of violence, controlled substances, and
offenses with minors or firearms and destructive devices).
Fourth, this Court should consider the strength of the evidence upon which
detention was based, i.e., the evidence of risk of flight and dangerousness. There is
very little evidence of risk of flight and, as noted above, Mr. Tripodis’s
“dangerousness” is not related to any of the enumerated offenses in 18 U.S.C. §
15

3142(f). Moreover, the District Court was inaccurately advised that Mr. Tripodis
had been convicted of battery, aggravated assault, and carrying a concealed weapon.
In sum, Mr. Tripodis is not so “dangerous” that over 31 months’ detention is
justified. The District Court erred by not finding Mr. Tripodis’s continued detention
does not violate due process.
THE DISTRICT COURT ERRED BY USING A HIGHER STANDARD
THAN REQUIRED BY THE BAIL REFORM ACT
The District Court applied a higher standard to Mr. Tripodis than what is
required by statute. As previously noted, the District Court ruled:
I think for the reasons stated by [the magistrate] in his Order of October
22nd, dangerousness is a factor that can be considered. And based on
the Defendant’s extensive record of committing the same types of
crimes, two convictions for it, repeated violations of the conditions of
supervised release, that he is a danger to the community if he would be
released, and that there are no conditions that can assure the safety of
the community if he was released.
Transcript at 20 (emphasis supplied). However, 18 U.S.C. § 3142(f) provides that
the purpose of the detention hearing is to determine “whether any condition or
combination of conditions set forth in subsection (c) of this section will reasonably
assure the appearance of such person as required and the safety of any other person
and the community ....” (emphasis supplied).
A similar problem arose in Ploof supra, wherein the district court’s order also
omitted the word “reasonably.” Ploof supra, 851 F.2d at 9. The First Circuit
remanded the case for a determination of whether “there is a serious risk defendant
16

will engage or attempt to engage in the conduct set forth in Sec. 3142(f)(2)(B) and
that no condition or combination of conditions set forth in Sec. 3142(c) will
reasonably assure the safety of any other person and the community.” (Emphasis
supplied).
As it appears from the record that the District Court applied a higher standard
than required by the Bail Reform Act, this Court should remand the case with
direction to the District Court to apply the proper standard to its findings.

17

CONCLUSION
The District Court incorrectly applied the law when it denied Mr. Tripodis’s
appeal of the magistrate judge’s detention order.

The District Court’s order

upholding the magistrate court’s detention order should be overturned and the matter
should be remanded for the District Court to set a reasonable bond. In the alternative,
the matter should be remanded for the District Court to apply the proper standard to
its findings.
Dated this 17th day of February, 2021.
Respectfully submitted,

/s/ Mark A. Campbell______
MARK A. CAMPBELL
3300 Hamilton Mill Road
Suite 102-124
Buford, Georgia 30519
(404) 345-2593
mcampbell.atty@gmail.com
Georgia Bar No. 384028
Attorney for Everett Tripodis

18

CERTIFICATE OF COMPLIANCE AND SERVICE
This Certificate complies with the typeface requirements of Fed. R. App. P.
32(a)(5) and the type-style requirements of Fed. R. App. P. 32(a)(6) because it has
been prepared in a proportionally spaced typeface using Microsoft Word processing
software in 14-point Times New Roman. This document was served today by filing
it using the Court’s CM/ECF system, which automatically notifies all parties and
counsel of record.
Dated: This 17th day of February, 2021.

/s/ Mark A. Campbell
MARK A. CAMPBELL

19

Exhibit B

USCA11 Case: 20-14724

Date Filed: 03/25/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-14724-D
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
EVERETT JEROME TRIPODIS,
a.k.a. Everett Tripodis,
Defendant - Appellant.
On Appeal from the United States
District Court for the Northern District of Georgia
BEFORE: WILSON, ROSENBAUM, and LUCK, Circuit Judges.
BY THE COURT:
Before the Court is Appellant’s “Motion in Support of Appeal of District Court’s Detention
Order.” The district court determined that no conditions of release will reasonably assure the safety
of the community. Upon plenary review, we conclude that this was not erroneous. See United
States v. Hurtado, 779 F.2d 1467, 1471-72 (11th Cir. 1985). Appellant’s motion isDENIED.
The Clerk is directed to close this appeal.

Exhibit C

,

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-14724-D

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
EVERETT TRIPODIS,
Defendant-Appellant.

MOTION FOR RECONSIDERATION

MARK A. CAMPBELL
3300 Hamilton Mill Road
Suite 102-124
Buford, Georgia 30519
(404) 345-2593
mcampbell.atty@gmail.com
Georgia Bar No. 384028
Attorney for Everett Tripodis

l

V
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
UNITED STATES OF AMERICA,
Respondent-Appellee,
APPEAL NO. 20-14724
v.
EVERETT TRIPODIS,
Defendant-Appellant.

MOTION FOR RECONSIDERATION
The Petitioner, EVERETT TRIPODIS, hereby files this motion for
reconsideration of this Court’s March 25, 2021 opinion denying his Motion in
Support of Appeal of District Court’s Detention Order. Therein, this Court upheld
the District Court’s finding that no conditions of release would reasonably assure the
safety of the community as not erroneous (using the plenary review standard). (Mar.
25, 2021 opinion). Mr. Tripodis asks this Court to reconsider its opinion as it failed
to address the significant issues Mr. Tripodis raised.
On appeal, Mr. Tripodis did not question the District Court’s determination
that no conditions of release would reasonably assure the safety of the community.
Rather, Mr. Tripodis argued that as he is not charged with one of the offenses listed
in 18 U.S.C. §§ 3142(f)(1), he cannot be detained on the basis of danger to the
community. See United States v. Himler, 797 F.2d 156, 160 (3d Cir. 1986); United
2

r. r

(„

States v. Ploof, 851 F.2d 7, 11 - 12 (1st Cir. 1988); United States v. Friedman, 837
F.2d 48, 49 (2d Cir. 1988); United States v. Byrd, 969 F.2d 106, 100-11 (5th Cir.
1992); United States v. Twine, 344 F.3d 987 (9th Cir. 2003).
Mr. Tripodis noted that this Court has yet to issue an opinion on the issue of
whether someone can be detained on a finding of dangerousness absent being
charged with one of the offenses listed in 18 U.S.C. §§ 3142(f)(1) and suggested that
this Court should adopt the compelling and persuasive holdings of other circuits
considering the same issue. By failing to address this issue in its March 25, 2021
opinion, this issue remains unresolved in the Eleventh Circuit.
In addition, Mr. Tripodis raised a viable Due Process claim. Mr. Tripodis has
been detained for over 32 months on nonviolent charges related to vehicle theft and
interstate transportation of stolen vehicles. This Court’s March 25,2021 opinion did
not even mention that issue, let alone address it. Given that other circuits have found
pretrial detention too prolonged to withstand due process challenge when imposed
for periods of time shorter than the 32 months that Mr. Tripodis has already endured.,
see, e.g., United States v. Zannino, 798 F.2d 544, 548 (1st Cir. 1986) (noting that, in
perhaps most cases, sixteen months would be found to exceed due process
limitations); United States v. Gonzales Claudio, 806 F.2d 334, 341 (2nd Cir. 1986)
(stating “detention that has lasted for fourteen months and, without speculation, is
scheduled to last considerably longer, points strongly to a denial of due process”;
3

see also United States v. Ojeda-Rios, 846 F.2d 167, 169 (2nd Cir. 1988) (ordering
the release of member of a paramilitary group charged with robbery after
approximately 33 months’ detention), a constitutional question of this magnitude
(given the extended detention for a nonviolent offense with little opportunity for trial
in the near future) begs for resolution by this Court so that reasonable outer limits
on pretrial detention in the Eleventh Circuit can be established.
Mr. Tripodis moves this Court to reconsider its March 25, 2021 opinion and
address the issues of whether, in the Eleventh Circuit, someone can be detained on
the basis of danger to the community when not charged with one of the offenses
listed in 18 U.S.C. §§ 3142(f)(1) and whether pretrial detention of over 32 months
on nonviolent charges violates the Due Process Clause of the United States
Constitution.
Dated this 2nd day of April, 2021.
Respectfully submitted,

/s/ Mark A. Campbell______
MARK A. CAMPBELL
3300 Hamilton Mill Road
Suite 102-124
Buford, Georgia 30519
(404) 345-2593
mcampbell.atty@gmail.com
Georgia Bar No. 384028
Attorney for Everett Tripodis
4

«*

r t

CERTIFICATE OF COMPLIANCE AND SERVICE
This Certificate complies with the typeface requirements of Fed. R. App. P.
32(a)(5) and the type-style requirements of Fed. R. App. P. 32(a)(6) because it has
been prepared in a proportionally spaced typeface using Microsoft Word processing
software in 14-point Times New Roman. This document was served today by filing
it using the Court’s CM/ECF system, which automatically notifies all parties and
counsel of record.
Dated: This 2nd day of April, 2021.

/s/ Mark A. Campbell
MARK A. CAMPBELL

5

*0

1

USCA11 Case: 20-14724

Date Filed: 04/15/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-14724-D
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
EVERETT JEROME TRIPODIS,
a.k.a. Everett Tripodis,
Defendant - Appellant.
On Appeal from the United States
District Court for the Northern District of Georgia
BEFORE: WILSON, ROSENBAUM, and LUCK, Circuit Judges.
BY THE COURT:
Appellant’s “Motion for Reconsideration” is DENIED.

Case l:18-cr-00240-TWT-LTW Document 297 Filed 12/04/20 Page ! of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
United States of America
Criminal Action No.

v.

1:18-CR-00240-TWT-JFK-l

Everett Tripodis
Order

Defendant Everett Jerome Tripodis has filed a "Motion for Review of
Magistrate Judge's Detention Orders," [Doc. 287], in which he requests that the
Court review the magistrate court's decision denying his motion for
reconsideration of an order for detention and for release on a secured bond. An
individual ordered detained by a magistrate judge may file a motion to revoke or
amend the detention order in the district court under 18 U.S.C. § 3145(b). The
district court's review is de novo. Having conducted a de novo review of the record,
including the parties' briefing and the magistrate judge's order, as well as hearing
argument from the parties themselves, the Court finds that continued detention is
appropriate.
Magistrate Judge Russell G. Vineyard conducted a bond hearing on July 13,
2018 and, thereafter, granted the Government's motion for detention and ordered
Defendant detained pending trial. [Docs. 36, 37]. On September 29, 2020,
Defendant filed a motion for reconsideration of bond. [Doc. 272], The Government
opposed the motion and argued Defendant should remain detained. [Doc. 284],

Case l:18-cr-00240-TWT-LTW Document 297 Filed 12/04/20 Page 2 of 2

On October 22, 2020, the magistrate court entered a detailed order denying
Defendant's motion for reconsideration of bond. [Doc. 286], Defendant filed a
motion requesting the district court to review the magistrate judge's order. [Doc.
287], On November 12, 2020, Defendant, represented by counsel, and the
Government presented argument to the Court regarding the continued detention
of Defendant.
For the reasons enumerated in the magistrate court's October 22, 2020 order
denying Defendant's motion for reconsideration of bond, the Court finds that
dangerousness is a factor that can be considered as grounds for detention in this
case. The Court further finds that Defendant is a danger to the community and
that no conditions of release will reasonably assure the safety of the community
based on Defendant's extensive record of committing similar crimes, with two
prior convictions, as well as his repeated violations of the conditions of federal
supervised release and state probation. Moreover, the Court finds that
Defendant's continued pretrial detention does not constitute a due process
violation given the unique current circumstances in which we now find ourselves.
Accordingly, detention remains appropriate and Defendant's Motion for
Review of the Magistrate Judge's Detention Order is hereby DENIED.
SO ORDERED, this 4th day of December, 2020.
/si Thomas W. Thrash. Tr.
THOMAS W. THRASH, JR.
UNITED STATES DISTRICT JUDGE

